                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: Al3060075                                                                         Page 1 of 1



                                                                                    1
                 We received and allegation that an NSF rotator Division Director (DD) may have violated
         conflict of interests (COl) rules by interviewing a candidate2 to replace her as DD. The candidate
         was from an institution3 where the DD was actively interviewing for potential employment as a dean
         of a different college than the candidate's.

                 Our investigation confirmed the allegation. However, the DD was not hired for the dean
         position and left NSF. Although it is clear the DD had a conflict of interests, the seriousness of the
         violation was minor and mitigated by the fact that she did was not selected for the dean position and
         was no longer employed by NSF. Accordingly, this case is closed.




         2




NSF OIG Form 2 (11/02)
